<html>
<title> - ``THE INSURRECTION ACT RIDER'' AND STATE CONTROL OF THE NATIONAL GUARD</title>
<body><pre>[Senate Hearing 110-109]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-109
 
 ``THE INSURRECTION ACT RIDER'' AND STATE CONTROL OF THE NATIONAL GUARD

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2007

                               __________

                          Serial No. J-110-30

                               __________

         Printed for the use of the Committee on the Judiciary

                     U.S. GOVERNMENT PRINTING OFFICE

37-097 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















































                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director





























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    10
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    37

                               WITNESSES

Blum, H. Steven, Lieutenant General, U.S. Army, Chief, National 
  Guard Bureau, Alexandria, Virginia.............................     7
Bond, Hon. Christopher S., a U.S. Senator from the State of 
  Missouri.......................................................     6
Easley, Hon. Michael F., Governor, State of North Carolina, 
  Raleigh, North Carolina........................................     3
Kamatchus, Ted G., Sheriff, Marshall County, Iowa, President, 
  National Sheriffs' Association, Marshalltown, Iowa.............    11
Lowenberg, Timothy, Major General, U.S. Air Force, Adjutant 
  General, State of Washington, Tacoma, Washington...............     8

                       SUBMISSIONS FOR THE RECORD

Blum, H. Steven, Lieutenant General, U.S. Army, Chief, National 
  Guard Bureau, Alexandria, Virginia, statement..................    21
Bond, Hon. Christopher S., a U.S. Senator from the State of 
  Missouri, statement............................................    26
Easley, Hon. Michael F., Governor, State of North Carolina, 
  Raleigh, North Carolina, statement.............................    28
Kamatchus, Ted G., Sheriff, Marshall County, Iowa, President, 
  National Sheriffs' Association, Marshalltown, Iowa, statement..    33
Lowenberg, Timothy, Major General, U.S. Air Force, Adjutant 
  General, State of Washington, Tacoma, Washington, statement and 
  attachments....................................................    39
Sanford, Hon. Mark, Governor, State of South Carolina, Columbia, 
  South Carolina, letter.........................................    63


 ``THE INSURRECTION ACT RIDER'' AND STATE CONTROL OF THE NATIONAL GUARD

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 2:44 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feingold, and Grassley.
    Also Present: Senator Bond.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good afternoon. I apologize for being late, 
and I thank Senator Grassley. I might say, when Governor Easley 
and I were chatting about something else, but, Governor, I 
think I can speak for all Vermonters. My heart goes out to the 
people of your State on the loss in the last few hours. That 
was a pretty horrific battle, and those are very brave soldiers 
and, as you know from the training they get, among the best.
    There was a little noticed but very sweeping change in the 
law regarding the National Guard by the last Congress. 
Specifically, we are examining the recent changes to the 
Insurrection Act, which controls when the President can use 
components of the U.S. military for domestic law enforcement 
purposes. The Insurrection Act is one of the major exemptions 
to our longstanding statutes but also the distinctive American 
tradition not to involve the military in domestic law 
enforcement. We are lucky in this country. We have superb 
domestic law enforcement. We have superb military. And they are 
better if they are allowed to do their own jobs. Both the House 
and Senate Armed Services Committee slipped provisions into the 
Defense Authorization bill last year, apparently at the request 
of the administration, to make it easier for the President to 
invoke the Insurrection Act in cases well short of 
insurrection.
    In addition, the President's authority to nationalize State 
units of the National Guard was increased. The State units of 
the National Guard are controlled by our Governors. Frankly, I 
have been pretty impressed with the job the Governors have 
done, both Republicans and Democrats. They are doing a good job 
with that. This law authorizes the President essentially strip 
control of the State Guard units from a State's Governor 
without consent. I understand that none of the Nation's 
Governors were consulted. The Nation's adjutant generals, who 
command the State Guard units, were not consulted. And the 
local law enforcement community was not consulted. I know this 
Committee was not consulted even though we have jurisdiction 
over law enforcement matters. There was no debate on it. Even 
after we discovered this add-on and objected and Governors 
objected, it went through and it was signed into law.
    Now, it is not just bad process. It is also bad policy. The 
Insurrection Act Rider subverts sound policies for dealing with 
emergency situations that keep our Governors and other locally 
elected officials in the loop when they have to deal with 
disasters. The changes increase the likelihood that the 
military will be inserted into domestic situations. One of the 
characteristics of our Nation is that we do not have the 
military patrol our communities. We have local law enforcement 
doing it.
    I will put the rest of my statement in the record and note 
that the National Guard has served spectacularly when the 
Governors have asked them. I think about Katrina. The active 
military forces came in, and they did a superb job there. The 
same cannot be said of FEMA, but the military performed very, 
very well.
    So let us talk about what we need to be doing to help the 
Army Guard, not ways to put them into things that are not 
needed and should not be done.
    With that, as I said, I will put my full statement in the 
record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Senator Grassley, did you wish to say 
something?
    Senator Grassley. I wanted to introduce a constituent of 
mine.
    Chairman Leahy. By golly, if there is a constituent of 
yours, I will yield to you for that purpose.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. Thank you very much. Iowa's sheriffs are 
proud, Iowa is proud, and I am proud to have the President of 
the National Sheriffs' Association here today. Sheriff Ted 
Kamatchus, of Marshall County, Iowa, is a dedicated law 
enforcement professional. Sheriff Kamatchus is here today in 
his capacity as President of the National Sheriffs' 
Association, and his testimony is going to be from 30 years' 
experience in law enforcement.
    I have known him for a long, long time because he has been 
a sheriff a long, long time and I have been a Senator a long, 
long time. And he is a person who has a great deal of candor 
and experience on issues that he has to consider, and he is 
going to present his experience on those issues here to us in 
the Senate. As both a sheriff in rural Iowa and President of 
the National Sheriffs' Association, he can attest to the front-
line role that law enforcement plays across the country on 
issues large and small.
    So on behalf of the Committee, I welcome you, Sheriff. We 
value your insight and look forward to hearing your comments on 
this very important topic. Thank you for making the trip out 
here, and thank you for your friendship with me.
    Chairman Leahy. Sheriff, you be sure and get a copy of that 
part of the transcript. You are not going to do any better than 
that.
    [Laughter.]
    Sheriff Kamatchus. Thank you very much.
    Chairman Leahy. Thank you.
    Gentlemen, would you mind to stand and raise your right 
hand, please? Do you swear that the testimony you will give in 
this matter will be the whole truth, so help you God?
    Governor Easley. I do.
    General Blum. I do.
    General Lowenberg. I do.
    Sheriff Kamatchus. I do.
    Chairman Leahy. The first witness, of course, the Honorable 
Michael Easley, is the Governor of the State of North Carolina. 
Prior to being elected Governor, he served as a district 
attorney. Those of us who have served as district attorneys 
think that is a pretty darn good reason for being here. He was 
then Attorney General of the State of North Carolina from 1992 
to 2000, and correct me if I am off on these numbers, Governor. 
He is now in his second term. He has demonstrated outstanding 
leadership among the Nation's Governors on National Guard 
issues. Along with Governor Sanford of South Carolina, he leads 
the National Governors Association Committee on Homeland 
Security and Guard Issues, and he has been a tireless champion 
of these issues, and he has taken time out of what I know is an 
extraordinary schedule to be here.
    Governor, why don't you start.

 STATEMENT OF HON. MICHAEL F. EASLEY, GOVERNOR, STATE OF NORTH 
               CAROLINA, RALEIGH, NORTH CAROLINA

    Governor Easley. Thank you, Senator. It is an honor to be 
here with you all. First thank you for your kind remarks about 
the soldiers in Fort Bragg, and I am pleased to know that 
people are paying attention. We are very proud of our military 
in North Carolina. As you know, we are home to an awful lot of 
military. But we are also very proud of the National Guard.
    I appear here today as Governor of the State of North 
Carolina, but also as Chair of the National Governors 
Association on National Guard Issues. My co-Chair is Governor 
Sanford in South Carolina. He has submitted a letter for the 
Committee, and I am asking if that could submitted for the 
record.
    Chairman Leahy. Governor, a letter signed by every single 
Governor will be put in the record, the letters you referred 
to: the National Governors Association, the National Lieutenant 
Governors Association, the National Conference of State 
Legislators, the Adjutants General Association of the United 
States, the Enlisted Association, the National Guard, The 
National Guard Association of the United States, the National 
Sheriffs' Association, plus appropriate editorials. They will 
all be part of the record.
    Governor Easley. Thank you. I just want the record to show 
I could build a consensus when necessary.
    I want to note that our National Guard has been absolutely 
fantastic since I have been in office in 2001. We have had over 
10,000 deployed to Iraq and Afghanistan of our 11,500, and at 
the same time, we have had 3,800 deployed on domestic issues at 
home. So you can see that it is critical to the Governors to 
have the National Guard in domestic emergencies. We are 
responsible under those circumstances, and it is critical that 
we have the Guard available to us.
    I am skipping my prepared remarks and just giving you a 
brief summary. Some of the examples I would cite just from me 
in my State, in 2003 we had Hurricane Isabel come through. The 
National Guard, with the high- water clearance vehicles, 
secured 130 people who otherwise probably would have perished 
in a flood. We could not have gotten them without the Guard.
    In 2004, Hurricane Frances, after it hit Florida, came into 
the mountains of North Carolina. The Guard, using helicopters, 
literally picked people out of the trees, off rooftops.
    The ice storms of 2002, 2003, 2004, the National Guard went 
door to door to make certain that those people who were shut-
ins got the heat they needed, the food, medication, 
transportation, power, whatever it was that they needed. And it 
is important that we have the Guard as part of the community 
and knew where to go on the local level.
    But it is very important not only that we have the Guard, 
but that we have the certainty of knowing that they will be 
there for us when we have a domestic emergency.
    Under section 1076 of the National Defense Authorization 
Act was changed last year. As you point out, no Governor was 
consulted, no debate, no hearing, nothing took place. We 
unanimously came together and opposed it, and that is very 
difficult. We have only been able to get two unanimous letters 
since I have been over the last 6-1/2 in the National Governors 
Association, both of which dealt with the National Guard.
    What this bill does, the one that now we are seeking to 
have repealed, is it unnecessarily expands the President's 
authority to call up the National Guard in domestic situations. 
The President currently has the authority we believe that he 
needs and that the Constitution gives him under the 
Insurrection Act. That is something that has been used very 
rarely over the years, I think since World War II only nine or 
ten times, generally when the States were not doing it, such as 
civil rights issues, when the President had to call out the 
National Guard.
    The Governors unanimously came together on this particular 
piece of legislation because it seriously undermines our 
ability to protect the people we serve, that we all serve, but 
in individual States, each Governor has responsibility to 
respond to any disaster, manmade or natural, in their State. 
And it is important to note that we plan year-round for all 
types of disasters, and those plans involve the National Guard. 
They involve emergency management, fire and rescue, local 
police, a number of agencies, but all depend on those team 
members of the Guard. And if we cannot be assured that the 
Guard is going to be there, then we cannot plan and we cannot 
coordinate, and then there is a confusion in the chain of 
command.
    As the Senator knows, the Governors are commanders-in- 
chief of the National Guard during domestic events, and the 
President, when he calls up the Guard for Federal service, as 
he has done for Iraq and Afghanistan, then he is commander-in-
chief. The problem is that under this bill we do not know when 
the President is going to call up the Guard because the 
latitude is so much broader now.
    Some of the language that is used in the bill is very 
troubling, especially as it relates to public health. Let me 
just mention three areas that Governors really have problems 
with here.
    It affects our ability to plan. You cannot plan without 
every member of the team. All of our plans for these events--by 
the time you see an event on television, that a hurricane is 
headed for the east or west coast, that it may hit North or 
South Carolina, we have been through those exercises so many 
times. We know by watching the weather and keeping up with all 
the information that comes through, we know what package to put 
together, what units to call up of the Guard to put with our 
local other responders. And that is how we respond. If you do 
not do the planning, then you never get to the response stage. 
And that is why it would be ill-advised for the President to 
call up the Guard at response time when they have not been 
involved in the planning stage.
    So the second piece to that is response. We cannot respond 
without the National Guard. We would be missing a critical 
element, and the rest of the response effort would probably 
collapse as a result of that. Also, I think the final point on 
that is the more local the control, the better the response is 
going to be. We have certain areas in the State when a weather 
event is coming, I can pretty much tell you what areas will and 
will not evacuated when asked to, and we can go in and get them 
and get them out. We have learned these things over time, and 
so have the members of the National Guard.
    So a very important team, whether the disaster is a 
hurricane, a terrorist attack, or pandemic. Let me just mention 
one thing about a pandemic. We had Secretary Leavitt come and 
honestly tell us that in the event of a pandemic, do not look 
for Washington to come riding in, that you are going to have to 
handle this yourself.
    Under 1076, one of the events that allows the President to 
take control of the Guard is a serious public health measure. 
If that were to happen in a pandemic, we would not be able to 
respond.
    So let me conclude my remarks by saying this is a serious 
problem for the Governors. It is our responsibility to respond, 
plan, to be held accountable when there is an event, a domestic 
disaster, and we believe that working in partnership with the 
Federal Government is what we ought to be about. This should 
not be a tug-of-war between the Governors and the President. 
This should be an effort to try and work to build a better 
partnership between Homeland Security and the Governors.
    Chairman Leahy. And you also have the fact that if 
something is happening at home, people are going to look at 
your first. They are not going to look at Washington. They are 
going to look at you and see what your reaction was.
    [The prepared statement of Governor Easley appears as a 
submission for the record.]
    Chairman Leahy. Senator Bond is the Co-Chair of the Guard 
Caucus, and he and I Chair that, and we try to get bipartisan 
support on these things. We have bipartisan opposition to this 
legislation.
    Senator Bond, did you want to say anything before we go to 
General Blum?

STATEMENT OF HON. CHRISTOPHER S. BOND, A U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Bond. Mr. Chairman, if I might, I have just come 
from the Intelligence Committee, where I am, with Chairman 
Rockefeller, holding a hearing. And if you do not mind, I 
wanted to put in my two cents' worth, and I say that I speak 
also for Governor Rockefeller as for Governor Bond.
    Governor, we know, as the Chairman does, how rare it is to 
have the NGA all on the same page, but this is of such 
overwhelming importance that I think it is extremely important. 
And I would only say that all the comments you said about 
having to be in on the planning process when you get called 
into action might apply to a broader bill that Chairman Leahy 
and I are trying to push to get the Guard a seat at the table 
with the Pentagon, which would be a heck of a good idea.
    Mr. Chairman, the measure that was included in last year's 
congressional Defense Authorization Act I think was ill-
conceived, unnecessary, and dumb. Even some of the members of 
the--
    Chairman Leahy. And that is giving it the benefit of the 
doubt.
    Senator Bond. Well, even some of the members of the SASC 
who should have did not know about it. But this is an 
influential panel, and you know how it has changed the old law, 
and we now know that all 50 of our Nation's Governors, 
Adjutants General, and local law enforcement are opposed to it. 
Nobody knows where it came from. Allowing the President to 
invoke the Act and declare martial law where public order 
breaks down as a result of natural disaster, epidemic, 
terrorist attack, is very ambiguous and gives him broad 
authority potentially to usurp the role of the Governors, which 
is extremely important. Why on Earth would anyone want to do 
it? If, for example, during and after the aftermath of the 
hurricane the Guard failed to respond, that might be one thing. 
But everything we all know is that the Guard performed 
magnificently when called upon. They were there, and the 
Governors and Adjutants General responded. While Katrina was 
one if not the Nation's most devastating natural disasters, at 
no time did anyone question the Guard's response. The only real 
significant challenge was the shortfall in equipment.
    Governor, we had an engineer battalion down there doing a 
fabulous job, and they asked us for a second one. We had them 
all trained and ready to go, but they had to drive down in 
pick-up trucks. They had no communication, no equipment, none 
of the equipment they needed. And that was not the fault of the 
Guard. They were ready to go. And the current law as it stands 
limits the Guard's flexibility to perform their duties. It 
lessens the Governor's control over units and diminishes the 
Guard's ability to protect communities.
    I am very proud to join with Senator Leahy in cosponsoring 
S. 513, but we also need to enact this bill quickly, and I hope 
we can get our almost 80 members of the Senator National Guard 
Caucus to join with us.
    Thank you, Mr. Chairman, and I apologize to the witnesses 
for interrupting. But I feel strongly about it, and a harsh 
letter will follow.
    Chairman Leahy. And you can see, Governor, Generals, and 
Sheriff, there is this strong feeling. It is sort of like an 
attitude of it is not broken, why do we want to fix this if 
something has worked well. I will trust the Governors, 
Republican and Democratic alike, I will trust them to have the 
first idea, and I will trust the men and women of our Guard, 
who are so well trained, to respond well.
    I should have mentioned, Governor Easley, that I traveled 
down to Camp Lejeune a couple times when young Lance Corporal 
Mark Patrick Leahy was there. I try not to mention that my 
Marine son with General Blum and General Lowenberg of 
different--
    Senator Bond. Don't blow my cover, either.
    Chairman Leahy. Yes, that is right. General Blum, of 
course, is the Chief of the National Guard Bureau. He is 
responsible for coordinating all the activities of the National 
Guard across the country. He is in actually one of the most 
unusual positions in the United States military, not only 
officially serving as a Federalized member of the active 
military, but also as the chairman of communication for our 
Nation's Governors and Adjutants General. General Blum is no 
stranger to Capitol Hill.
    General, I will turn it over to you.

 STATEMENT OF LIEUTENANT GENERAL H. STEVEN BLUM, UNITED STATES 
    ARMY, CHIEF, NATIONAL GUARD BUREAU, ALEXANDRIA, VIRGINIA

    General Blum. Thank you, Mr. Chairman, Senator Bond, 
Senator Feingold, distinguished members of the Committee. 
Thanks for the opportunity to be here today.
    Disaster response and the management of disaster response 
has traditionally rested within the discretion of our Nation's 
Governors, and it has been very, very successful because those 
first able to respond and lead that response have a 
comprehensive and complete knowledge of the environment that 
they are responding to and the troops that they are employing 
under them.
    Even for a no-notice catastrophic event such as the World 
Trade Center attacks, it was very abundantly clear that an 
appropriate disaster response was well within the capability of 
the National Guard and the Governor and in that case the mayor 
of the city.
    More recently, the unprecedented scale of Hurricane Katrina 
showed that local authorities' ability to respond could be 
exceeded, but the response capabilities available to the local 
and State authorities can be expanded, and the Governors of 
Mississippi and Louisiana used an option that was available to 
them called the Emergency Management Assistance Compact, EMAC 
for short, to provide an immediate assistance across a broad 
spectrum ranging from law enforcement to humanitarian relief, 
with great effect.
    The EMAC model enabled the Governors of every State and 
Territory of this great Nation to deploy over 50,000 National 
Guard members with law enforcement authority and critical 
capabilities with efficiency and effectiveness to support the 
emergency response. It was, in fact, the largest, fastest 
domestic military response or mobilization of military assets 
in the history of our Nation, and it amassed all of the forces 
necessary. We deployed them to the right places under the 
command and control of the Governors in receipt of those forces 
from every State and Territory in our Nation.
    As it existed at the time of the Hurricane Katrina 
disaster, the Insurrection Act permitted the President to call 
the militia or the National Guard into Federal service to 
suppress insurrections or to enforce the law, including when 
State authorities were unable or unwilling to secure the 
constitutional rights of their citizens, as Governor Easley 
talked about earlier. Rarely in the history of our Nation has 
the National Guard been Federalized under the provisions of the 
Insurrection Act. In fact, I can only identify ten occasions in 
the historical record of our Nation since World War II when the 
National Guard was Federalized under the provisions of the 
Insurrection Act, and as Governor Easley alluded to, that was 
largely done to enforce and protect the civil liberties or the 
Federal laws that guaranteed civil liberties in the States that 
were not affording those civil liberties or violating Federal 
law.
    So when this authority is employed, it takes the control of 
the State's National Guard away from the Governor and places it 
in the command and control within the Federal Government.
    I ask, sir, that my written statement be submitted for the 
record, and I look forward to answering your questions.
    [The prepared statement of General Blum appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, General.
    Our next witness is Major General Timothy Lowenberg, who is 
the Adjutant General of the State of Washington. He commands 
the fine men and women at the Washington National Guard. You 
are also, I understand, the State's emergency manager, a 
trained lawyer, an expert on homeland security issues. In 1999, 
General Lowenberg was the recipient of the Eagle Award. That is 
the highest honor awarded by the National Guard Bureau.
    General, please go ahead.

STATEMENT OF MAJOR GENERAL TIMOTHY LOWENBERG, UNITED STATES AIR 
     FORCE, ADJUTANT GENERAL, STATE OF WASHINGTON, TACOMA, 
                           WASHINGTON

    General Lowenberg. Thank you, Senator Leahy, Senator 
Feingold, distinguished members of the Committee. Thank you for 
the opportunity to testify today. I want to emphasize at the 
outset that I am testifying on behalf of Governor Chris 
Gregoire and the legislature of the State of Washington, as 
well sa the Adjutants General Association of the United States. 
Although I am a U.S. Senate-confirmed General Officer of the 
Air Force, I appear before you today in State status at State 
expense as a State official, which means, if I can translate 
for you, that nothing I have said in my formal testimony or in 
this oral statement has been previewed, reviewed, or approved 
by anyone at the Department of Defense.
    In a majority of the states and territories, including the 
State of Washington, the Adjutant General is responsible for 
managing all State emergency management functions in addition 
to command and control of the Army and Air National Guard 
forces. I am also responsible, as many of my colleagues are, 
for developing and executing our State Homeland Security 
Strategic Plan.
    Adjutants General have extensive experience in the domestic 
use of military force. Our State, for example, ha had a 
Presidential disaster declaration on average every year for the 
past 40 years, and the Governor's use and the Governor's 
control of the National Guard was particularly instrumental in 
helping restore civil order in Seattle during the World Trade 
Organization riots in November 1999, which was on my watch as 
well.
    So I draw upon these experiences in telling you that 
passage of S. 513 is critical to restoring historic and 
appropriate State-Federal relationships and in enabling the 
States to carry out their responsibilities under the U.S. 
Constitution for maintaining civil order and protecting their 
citizens' lives and property.
    In giving substantially expanded martial law powers to the 
President, last year's conference insertion of Section 1076 of 
the 2007 National Defense Authorization Act reversed more than 
a century of well-established and carefully balanced State-
Federal and civil-military relationships. More than a century 
of policy and practice were changed without a single witness, 
without a single hearing, and without any public or private 
acknowledgment of proponency or authorship of the change.
    I suggest to you very respectfully that when laws are 
changed for the better, there are many who claim some 
responsibility or measure of credit for their passage. But this 
is a provision which has no DNA, no fingerprints, no one 
claiming authorship, in fact, no one who will even acknowledge 
having reviewed or coordinated on the changes before or after 
they were added in conference.
    Weaker measures in Section 511 of the House-passed bill 
were unanimously opposed by the Nation's Governors before the 
respective authorization bills went to conference. In fact, I 
have attached to my testimony several letters of opposition, 
including the one Governor Easley acknowledged that was signed 
by all 50 Governors. So this is not a partisan issue. It is a 
State-Federal issue of the highest order.
    These conference amendments to the Insurrection Act give 
the President sweeping power to unilaterally take control of 
the Guard during a domestic incident, without any notice, 
consultation, or consent of the Governor. It even permits the 
President to take control of National Guard forces while they 
are in the midst of a Governor-directed response and recovery 
operation.
    U.S. Northern Command has wasted little time in planning to 
use these new powers. They already have a final plan approved 
by Secretary Gates on March 15, 2007, which explicitly assumes 
the Guard ``will likely be Federalized under Title 10'' when 
the President unilaterally invokes the Act. The Governors and 
Adjutants General were give no notice of the development of 
these Federal plans, nor have we had any opportunity to present 
our concerns or to synchronize State plans approved by the 
Governors with NORTHCOM's plan.
    To add insult to injury, NORTHCOM's plan requires that the 
National Guard Joint Forces Headquarters of each State and 
Territory actually develop the very plans under which the 
Federal Government would take control of our States' National 
Guard forces.
    One key planning assumption at U.S. Northern Command is 
that the President will invoke his new martial law powers if he 
concludes State or local authorities lack the will to maintain 
order. This highly subjective operational standard is one of 
several that have been developed without any notice, 
consultation, or collaboration with the Governors of the 
several States and Territories.
    The Adjutants General Association of the U.S. joins with 
the Washington State Legislature, the National Governors 
Association, the National Lieutenant Governors Association, the 
National Conference of State Legislatures, the National Guard 
Association, the National Emergency Management Association, the 
International Association of Emergency Managers, and many, many 
other national associations in urging the members of this 
Committee, if you have not already done so, to cosponsor S. 513 
and to work for its swift passage.
    It is imperative that we have unity of effort at all 
levels--local, State, and Federal--when responding to domestic 
emergencies and disasters. Section 1076 of last year's Defense 
Authorization Act is a hastily conceived and ill-advised step 
backward. It openly invites disharmony, confusion, and the 
fracturing of what should be a united effort at the very time 
when the States and Territories need Federal assistance--not a 
Federal takeover--in responding to State emergencies.
    Thank you for this opportunity to express the concerns of 
the State of Washington and the Adjutants General Association 
of the United States. I look forward to your questions.
    [The prepared statement of General Lowenberg appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Senator Feingold has to go to the same Intelligence 
Committee meeting that Senator Bond has to go to. We are going 
to just hold for a moment on you, Sheriff.
    Senator Feingold, I will yield to you.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you very much, Mr. Chairman. I do 
need to get to that meeting, but I did not want to go before 
thanking all the witnesses, and I especially want to thank 
Senator Leahy, the Chairman, for his efforts to ensure that the 
National Guard is properly resourced and that the Defense 
Department plans for its civil support mission, that the 
Governors are not cut out of the decisionmaking process when 
the Federal Government responds to natural and manmade 
disasters. And Senators Leahy and Bond both, I want to say, 
have shown tremendous leadership by introducing both the bill 
to restore the Insurrection Act, S. 513, and the National Guard 
Empowerment Act, S. 430. I am pleased to be a cosponsor of both 
bills. I am pleased to be one of the people that associate 
myself with them, using my role in the Budget Committee every 
year to try to advance the particular concerns of the National 
Guard.
    I also come to this, as the Chairman does, because of our 
feelings about the Constitution, the traditional understandings 
that we have in this country of the difference between the 
standing military and the National Guard. These are important 
principles. They certainly should not be altered by a middle-
of-the-night fast move.
    I am particularly concerned about this because I look at 
what the National Guard has had to deal with in the last few 
years. I have always been proud of our National Guard, but I 
have got to tell you, what the National Guard in this country 
has been asked to do in the last few years is stunning. And I 
think of you, General Blum, and I think of you, General 
Lowenberg, I think of Adjutant General Wilkening in my State, I 
have never seen people respond with less complaint and more 
courage than I have seen in the National Guard in the last few 
years. It has been one of the best things I have seen in my 25 
years as a legislator at the State and Federal level.
    So my reaction to this, Mr. Chairman, is: What kind of 
thanks is this to an incredibly courageous response to a 
difficult time? So in the wake of Hurricane Katrina, the 
National Guard, the National Guard Bureau, the Adjutant 
Generals and volunteer reservists and members of the Armed 
Services all served honorably. They saved thousands of lives. 
Our Nation is indebted to them all. However, it is clear that 
much more needs to be done to ensure proper coordinate between 
local, State, and Federal officials and to ensure that the 
Defense Department properly plans and resources its civil 
support mission.
    Unfortunately, as has been pointed out, last year the 
Congress made rush changes to the Insurrection Act that would 
transfer control of the National Guard from the Governors to 
the President in the wake of natural and manmade disasters. 
These changes would undermine coordination by cutting the 
officials with the most knowledge of local conditions--the 
Governors--out of the chain of command. These changes also 
failed to address the real military assistance issue that 
surfaced in the wake of Hurricane Katrina--the need for the 
Defense Department to properly plan for and resource its civil 
support mission.
    The best course at this point is to pass S. 513 to restore 
the Insurrection Act and then take a closer and more careful 
look at these issues, including the National Guard Empowerment 
Act.
    Thank you very much, Mr. Chairman, for letting me speak at 
this time.
    Chairman Leahy. Thank you very much. I know of your 
concern, Senator, and I appreciate your taking the time from 
the other matter to be here.
    Sheriff, I could not even begin to give you the 
introduction that Senator Grassley did, but I know just being 
President of the National Sheriffs' Association gives you 
instant credibility. Go ahead, sir.

STATEMENT OF TED G. KAMATCHUS, SHERIFF, MARSHALL COUNTY, IOWA, 
 PRESIDENT, NATIONAL SHERIFFS' ASSOCIATION, MARSHALLTOWN, IOWA

    Sheriff Kamatchus. Good afternoon, Mr. Chairman and members 
of the Committee. I want to thank you for the opportunity to 
come here today. My name is Sheriff Ted Kamatchus. I am the 
sheriff of Marshall County, Iowa. I am the President of the 
National Sheriffs' Association. The National Sheriffs' 
Association represents over 3,000 sheriffs across the country 
and 22,000 members, professional law enforcement members. We 
span the Nation from border to border and coast to coast.
    I am pleased to have the opportunity to appear before you 
today to express my concerns, and what I know to be the 
concerns of sheriffs across the country, concerns about Section 
1076 of the National Defense Authorization Act for fiscal year 
2007. The changes represent an unprecedented and unnecessary 
expansion of Presidential power to Federalize the National 
Guard for domestic law enforcement purposes during emergencies 
and consequently undermine the ability of sheriffs to best 
serve and protect their constituents.
    The Office of the Sheriff plays a distinctive role in the 
Nation's criminal justice and homeland security system and 
reflects a uniquely American tradition of a law enforcement 
leader who is elected. Over 99 percent of the Nation's sheriffs 
are elected and generally serve as the highest law enforcement 
officer in their respective counties in this country. I speak 
for all sheriffs when I say that we maintain a vested interest 
in protecting the well-being of our constituents who have 
entrusted us with such a responsibility. Being elected to such 
a position in the community offers sheriffs the ability to 
develop and maintain close relationships. Thus, given the close 
relationship of the constituents we serve, sheriffs are able to 
best predict the potential response behaviors and needs of a 
local community in a time of disaster or emergency.
    Furthermore, as the chief law enforcement officer of his or 
her county, the sheriff provides protection, safety, and 
security at the local level. The sheriff knows exactly what 
resources are available to a community and where such resources 
can be located at a time of need.
    I know from experience the first responders at the local 
level work together day in and day out to develop the best 
method of addressing both local and national emergencies. Each 
morning, I stop by various coffee shops in my community to 
interact with the people of Marshall County, Iowa. These are 
the same voters who elected me to the office five times. I am 
in my 20th year as sheriff. I respect their input and listen to 
their concerns, and we are all friends, neighbors, and citizens 
together in Marshall County, Iowa. The closeness that they give 
me blesses me with a unique understanding of their needs, their 
day-to-day needs that provides me with the information I 
require in order to serve them good as a sheriff in Marshall 
County, Iowa.
    Citizens across this country have a real concern when they 
begin to consider that the military could enter their 
communities without invitation. They know firsthand that the 
Federal Government cannot provide them with the quality, 
caring, and necessary service they desire. They hold a deep 
inner fear that 1 day someone may utilize the power of the 
military for the wrong purpose, and in the majority of the 
States they select their sheriff to ensure that their homes 
remain safe, their communities free from crime.
    This past December, agents from ICE made a raid in a 
meatpacking plant in my community. I was in Des Moines, Iowa, 
at a training session, and as I was watching the TV station 
across the bond scrolled the fact that there was a raid on a 
meatpacking plant in Marshalltown, Iowa. That was the first I 
had heard about it, and I called my dispatch immediately. I was 
told that about 10 minutes prior to the raid, individuals of 
Immigration and Customs Enforcement had raided this meatpacking 
plant. I want you to know up front that I do not quarrel with 
them doing their job. They were enforcing immigration laws that 
I do not disagree with. But the bottom line was myself, the 
chief of police, our local law enforcement had no idea of this 
happening.
    I head up a drug task force in the four-county area, and my 
agents work undercover in those type of facilities, and the 
first thing I thought about was: Did I have somebody in there 
undercover who would be armed? I shudder when I think about 
what might have happened had those agents run across one of my 
people, undercover, armed. It could have been a deadly 
encounter that I have no desire to think about.
    I am happy that they conducted the raid, like I said, but 
it is important that you understand that it is important also 
to have communication. The old system of request and response 
that existed in the past between the National Guard and other 
Federal authorities, the responsibility to request additional 
aid from those Federal authorities rests on the shoulders of 
those local and State officials who are placed in office by the 
citizens. If those same local officials fail in reaching out to 
obtain the assistance necessary to accomplish their tasks, it 
falls upon us--us--by the citizens removing us from office by 
not voting us back in or asking us to step down.
    The National Guard this past winter in the State of Iowa 
came to our aid when we requested them when a sheet of ice 
stretched across the entire State and winds of 50 miles an hour 
snapped off poles all over the countryside. My county, 85 
percent of my county was without power for almost 10 days. The 
National Guard was there to assist me, work with me and my 
disaster people. They went door to door across my county, and 
they went ahead to make sure that the citizens of Marshall 
County were safe, but they did it at our request of the 
Governor, deployed by the Governor.
    Given the significance of the sheriff in the community, it 
is paramount that the sheriff and other local first responders 
are not stripped of their ability and authority to serve their 
constituency in a time of need. To provide a blanket authority 
to Federal agencies and individuals to conduct domestic law 
enforcement functions, as the new language of the Insurrection 
Act does allow, jeopardizes the likelihood of a timely response 
and effective assistance to our citizens in a time of need.
    Mr. Chairman, as President of the National Sheriffs' 
Association, I represent the sheriffs of this country, and my 
interest is for the country as a whole, border to border and 
coast to coast. I cannot stress enough that the significance of 
working relationships among all local first responders, clear 
and understood chains of command, and pre-existing plans of 
action must not be overlooked when considering how to best 
prepare our Nation's response to unforeseeable, disastrous 
events. The changes made to the Insurrection Act by Congress 
last year will undoubtedly result in a confusion in the chain 
of command and inefficient and ineffective functioning of first 
responders where the Act is invoked. Such a result would 
inhibit the ability of sheriffs and other first responders to 
carry out their duties and protect public safety.
    These possibilities represent an unwarranted diminution of 
State and local power as Governors and local law enforcement 
officials will lose their command structure and capabilities 
during times when the Act is invoked. Consequently, valuable 
resources may go unrecognized, unutilized in situations where 
Federal officials attempt to develop a response strategy 
without full or accurate knowledge of the community's resources 
and the capabilities we can allow.
    I strongly believe that before such influential changes 
were made to the Insurrection Act, key officials, Governors, 
sheriffs, and other stakeholders should have been consulted. I 
speak for the sheriffs when I urge that Congress support the 
legislation that repeals Section 1076 of the National Defense 
Authorization Act.
    I want to thank you, sir, very much for the opportunity. I 
want to let you know that we are fully behind this particular 
bill and the sheriffs across this country sit with the 
gentlemen to my right and their organizations in support.
    [The prepared statement of Sheriff Kamatchus appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, and that is support 
well worth having.
    Governor, I want to just make sure how all this stuff came 
about in the first place, why we are here. Can you tell us 
whether any of the Governors across the country were consulted 
by anyone in the administration, the Department of Defense, or 
within the Congress about these changes to the law?
    Governor Easley. To my knowledge, Senator, none of us were 
consulted. We found out about it after it was put in the bill. 
My recollection is it was a little bit stronger in the earliest 
language and then was changed a little bit to make it not quite 
so egregious, but still the Governors oppose it. But, to my 
knowledge, no one at least admits to having been consulted in 
the States or the Territories--I should mention there are three 
or four Territories that those Governors--
    Chairman Leahy. Well, when you found out, what did you 
folks do?
    Governor Easley. Well, we started calling Washington right 
away, writing our Senators and our House Members, and trying to 
make sure they understood the implications of this, calling our 
staffs here in Washington.
    Chairman Leahy. What kind of response did you get?
    Governor Easley. Not many people knew about it, and we 
found very few of the Members of Congress were aware of it, and 
they were not particularly concerned about it. The bill had 
moved on pretty rapidly, and I think by the time we found out 
and we contacted them, it was more of a fait accompli, this 
train is on the track and it is probably not going to be 
stopped, was pretty much what we got.
    Chairman Leahy. What about you, General Blum? Did anybody 
in the White House or Capitol Hill or Department of Defense 
contact you last year about the possibility of changing the 
Insurrection Act?
    General Blum. No, sir.
    Chairman Leahy. Do you know who originally -it is awfully 
hard sometimes with some of these things to find out where the 
parentage is. It is hard to do a DNA test to find out. Do you 
know who originally requested the changes to the law?
    General Blum. No, sir. I have had nobody step forward and 
say that they proposed this or were behind it. No, sir.
    Chairman Leahy. Do you know whether the idea came 
exclusively from either the Congress or the executive branch?
    General Blum. Sir, I have no idea where the idea came from.
    Chairman Leahy. General Lowenberg, let me ask you, were you 
or any of the Adjutants General of the U.S. consulted about 
these Insurrection Act changes?
    General Lowenberg. We have not been consulted before, 
during the conference, or after with regard to these changes. 
And I would also add, Senator Leahy, that I chaired the 
National Governors' Homeland Security Advisors Council. None of 
my colleagues, many of whom are not Adjutants General, were 
consulted either.
    Chairman Leahy. And, Sheriff, what about you and other 
local law enforcement officials? Were any of you consulted?
    Sheriff Kamatchus. No, sir. When we first found out about 
it, we checked with staff, and we tried to do a background on 
it as best we could, and we were unable to find out if any 
other sheriff or any other local law enforcement in the country 
had been consulted whatsoever.
    Chairman Leahy. You will not be surprised to know that I 
have asked the same questions of the Governor or Adjutant 
General or law enforcement in my State and I get precisely the 
same response. You know, Governor, when it comes right down to 
it, the old idea of ``the buck stops here,'' who is ultimately 
responsible for the security and safety of the people in your 
State?
    Governor Easley. Obviously, the Governors are. The 
Department of Emergency Management comes under each Governor in 
one form or another. We all have our Secretaries of Homeland 
Security in one form or another. Ours is Crime Control and 
Public Safety. But when a disaster is imminent or one occurs, 
some event occurs, we are expected to have planned it out how 
to respond and to respond appropriately. And I think the people 
see it as our responsibility, and I think if you search the 
statutes, Federal and State, you would find that it is 
primarily the Governor's responsibility.
    Chairman Leahy. If, God forbid, you had an emergency in 
your State tomorrow that required you to call on your Adjutant 
General to respond based on the planning you have done, do you 
have any worry that he would respond and respond the way you 
would expect him to?
    Governor Easley. The National Guard always responds, and 
responds admirably every time. My only concern would be if 
there was some Federal intervention by the President calling up 
the National Guard under this power that we are talking about. 
If that was taken away from me as Governor, then obviously they 
could only do what they were allowed to do by the President.
    So that is the only intervention I am aware of that would 
cause me any pause at all.
    Chairman Leahy. Does that worry you, if this power is in 
there, that Presidents might find the ability to just totally 
ignore the Governor if it is somebody they wanted to ignore?
    Governor Easley. Well, it certainly bothers me with 
hurricane season coming up, knowing that the President could 
come in, take the Guard away. The bill, as I read it, does not 
require the President to consult with the Governor or even 
notify the Governor that he has taken over the Guard or called 
the Guard up, asserted his authority. So, I mean, there is that 
uncertainty there. It is kind of like if you are coach of a 
basketball team, they give you five players, and they say, 
``Now, this one may come, may not come, but you need to plan to 
coach the game.'' That makes it hard for the team to be 
cohesive, and not knowing whether you are going to have all of 
the players there is a problem.
    The way everything is structured, emergency management and 
law enforcement, once the Governor declares an emergency, first 
responders, fire and rescue, they all work together under a 
central authority in the State, as does the National Guard. So 
they are all on the same team and working together.
    If you interject Federal authority, the Presidential 
authority into that, then there is all kinds of confusion with 
command, control, coordination, communication. That results in 
loss of time responding. Time results in loss of life and 
property. That is our biggest concern.
    Chairman Leahy. Thank you.
    General Blum, were these changes actually necessary for the 
National Guard to respond effectively in either natural or 
manmade disasters in the United States? Something the Guard has 
been doing all my lifetime.
    General Blum. Sir, I can only tell you what I know to be 
true, and under the law as it existed before the National 
Defense Authorization Act of 2007, the National Guard was able 
to respond effectively and efficiently to every natural 
disaster that has happened, and there were hundreds of them 
every single year since our Nation existed and since the 
National Guard has existed. In that long ordinary record of 
success, we have only been Federalized ten times, and as I said 
earlier, that was done under the provisions of the Insurrection 
Act to largely enforce the Federal law that would guarantee 
civil liberties to our citizens, and that was well understood.
    The Governors of this Nation have never been reluctant to 
seek and receive Federal assistance beyond what their local and 
State capabilities and their EMAC capabilities were able to 
provide. So we have seen, before the enactment of this law, we 
have seen the responses to Katrina, Rita, Wilma, 9/11, the 
Southwest border mission, several national special security 
events, and literally tens of thousands of military responses 
to civil authorities. Today, for example, there are 17 State 
Governors that have called out their National Guard today. 
There are 11,307 citizen soldiers acting on behalf of the 
citizens of 17 States that are either saving lives or reducing 
suffering and restoring order or normalcy to events that are 
driven basically by weather patterns.
    Chairman Leahy. Well, let me ask you a little bit about 
that. You mentioned Katrina. I am not only referring to FEMA 
now. I am referring to the military response made after 
Katrina, helping the civilian authorities. Would that response 
have really been any different if the President already had 
this new power? Did you need these new powers to be able to 
respond to help the people after Katrina?
    General Blum. No, sir. The only thing I needed was more 
equipment.
    Chairman Leahy. Also, in some reference to what you were 
saying, the President had--if it was necessary to--well, the 
President had the power to call up the military during Katrina 
if he wanted, didn't he?
    General Blum. Yes, sir, he did, and he actually did do that 
because in his judgment--and I share that--he thought it was a 
prudent thing to add additional capability into the region in 
case something unforeseen that we did not see on the horizon 
developed, and he just wanted to make sure that he had 
basically some insurance of capability above and beyond what 
was necessary.
    Chairman Leahy. But he did not need this change in the law 
to do that?
    General Blum. No, sir, he did not.
    Chairman Leahy. General Lowenberg, some of the people we 
have talked to say, well, these changes are simply a 
clarification in the law, we did not really -you know, they are 
not significant. How would you respond to that?
    General Lowenberg. For those who embrace the illusion that 
there is no change, I would say passage of S. 513 will have no 
consequence for them. But as attorneys--
    Chairman Leahy. I wish I could borrow you on the floor for 
the debate.
    [Laughter.]
    General Lowenberg. As attorneys, we know that changes in 
statutes do have meaning. This also included a change to the 
title of the Insurrection Act from ``insurrection'' to 
``enforcement of the laws to restore public order.'' I would 
suggest to you that in the legal context, the distinction 
between responding to a rebellion or insurrection or to 
something that is a restoration of public order are events of 
considerably different magnitude. And so from a legal context, 
the changes do have significance, tremendous significance, and 
I would suggest that that was not unintended.
    And, Mr. Chairman, if I may, also, previous laws amply 
provided for both the use of Federal and State military force 
in response to Hurricane Katrina. I think that amply 
demonstrates that there was no need to change the law. But if 
this law had been in effect in 2005, it could have enabled the 
President, with really no check and balance, to take Federal 
control over the National Guard forces, over 50,000 of them 
from every State and Territory, who were then operating in the 
Gulf Coast States in an ongoing recovery operation under the 
command and control of the Governor of each of those supported 
States. That is a significant change. The President could have 
done that without any notice to the Governor of any one of the 
supported States. It would have prevented the Governors of the 
supporting States, which is all of the Nation's Governors, from 
having the authority to withdraw their forces and bring them 
home in the event of an unanticipated emergency at home. And it 
would have significantly complicated the response.
    When I provided forces to the Governors of Mississippi and 
Louisiana, for example, under the Emergency Management 
Assistance Compact, they were under the operational control of 
the Adjutant General and the Governor of the supported States. 
This law would fundamentally change those Federal- State 
relationships.
    Chairman Leahy. And, Sheriff, I was interested in your 
discussion of the raid. I spent 8 years in law enforcement, and 
under our provisions, the law at that time, basically the law 
enforcement in our county, which was about a quarter of the 
population, when they had to coordinate activities, they 
coordinated through my office. So much so that I can remember 
at 3 o'clock in the morning having a command center set up in 
my living room on an undercover operation. We did not want any 
leaks, and the people operating and doing it were operating 
there, with everybody kind of whispering so we would not wake 
up the children upstairs. But we had an ability to coordinate.
    Conversely, these kinds of operations, significant raids 
and things of that nature, would not have gone on without me or 
one of my deputies knowing about it.
    Do you see under this law the ability of outside military 
commanders--I am not concerned about the Guard in your State, 
in Iowa. I assume that if they have a major operation, rescue, 
disaster, whatever, in your area, they coordinate with you. Is 
that correct?
    Sheriff Kamatchus. Yes, sir; very well.
    Chairman Leahy. And do you have a concern under this that 
you could suddenly ask, ``Who are these people and why are they 
here?'' I am not trying to put words in your mouth, although it 
appears that way. I was kind of struck by what you had to say.
    Sheriff Kamatchus. Well, over this past 10 months, I have 
had a chance to travel across this country, not just in Iowa, 
but I heard it in Iowa also. People are concerned about those 
types of things. It is not necessarily with this President, but 
any President who would have this type of authority, there is 
the potential or the possibility under this new law that those 
type of things could rise up. And I think those things need to 
be answered. I think the citizens deserve the answer as to why 
this was done in the 11th hour, if you will. Why weren't we--I 
am a full-line sheriff. The majority of sheriffs in this 
country, we serve the correctional, civil, and criminal 
enforcement. Why weren't we and chiefs of police and local 
government all consulted in this?
    That is the big problem I have. We have a great working 
relationship overwhelmingly with the Federal Government and 
also with the National Guard currently. My office works with 
them virtually daily in some cases. But when I see the type of 
situation that could have happened, like what happened with 
ICE, it makes me pause for a second and think how easily could 
that happen with the military and how much worse could that be.
    Chairman Leahy. I worry about these things. I do not 
pretend that my experience is the end-all, be-all, but I worry 
about that. And it seems in my State things work pretty well. 
We have a Governor, we have the head of the Department of 
Public Safety. And so nobody would think there is anything 
political here, they are different parties than I am. In a 
disaster, I would certainly trust them fully to work very 
closely with our Adjutant General, as they have. And I suspect 
the scale changes, Governor, when we get down in your area, but 
I would also assume that you have coordination with the States 
in your area. I have never known a hurricane that follows a 
geographical border of a State carefully, but you must have 
coordination, do you not, in your State with adjoining States 
and also your Adjutants General?
    Governor Easley. We do. We have coordination. First of all, 
things are broken up in regions, and I might note that 
Mississippi, I think, and Alabama were in a different region 
than Louisiana during Katrina and Rita. But we also have the 
Emergency Management Assistance Compact, ``EMAC'' it is 
referred to. What that does is it allows all of the States. We 
take turns being the coordinating State each year. It lets all 
of the States or any one of them call on all others for 
assistance they might need.
    So let's assume that Vermont gets hit with some particular 
event that causes you to need additional resources. Then the 
Compact would come together, listen to your Governor and your 
Secretary of Emergency Management, find out what you need. If 
you need additional Guard troops, they will get the Guard 
troops, and if you need additional power, whether it is 
engineering, medical transportation, aviation, public health, 
whatever it is you need, then the States come together and 
assist each other.
    So there is absolutely no problem with the coordination. 
That is why that is there. And I want to point out, that is 
practiced and exercised every day, every week. We go through 
these exercises, tabletop exercises, these ``what if things 
went wrong.'' We just finished one not long ago dealing with a 
foreign animal disease that might enter a State and how you 
deal with it and how you contain it. These are things that we 
all work on together.
    Chairman Leahy. A few years ago, we had this extraordinary 
ice storm throughout the Northeast, and a lot of our power 
comes down from the province of Quebec. The ice took down miles 
and miles and miles of high-power lines in Quebec, just 
collapsed them, which, of course, has a ripple effect, and 
blackened part of our State, just without power. In an 
agricultural area where, among other things, they have a lot of 
dairy farms, and, you know, you cannot tell, ``We will come and 
milk you in a few days.'' The Guard came in immediately, and 
others. But when you were talking about other States coming in, 
we had all the way down to Virginia, we had people coming up to 
help, and there was a wonderful ad afterward showing Virginia 
Power Company, and they were resetting the lines to this 
farmer's home, and the kids had put up a display that had a 
sled out there with Santa Claus in it. And the tag line was, 
``Yes, Santa Claus, there is a Virginia.''
    [Laughter.]
    Chairman Leahy. But the fact is we expected it, and they 
came. General Blum knows our situation there well. He knows in 
a small area in New England and all, the New England States 
respond immediately to each other. We respond to upstate New 
York.
    Again, I mention this because it is not a geographical 
line, but it is not a question of whether the Federal 
Government has to step in to make that known. The Governors 
work it out pretty well, do they not?
    Governor Easley. They do, and I think it is important to 
note that the Federal Government does not have the resources to 
do but so much. If you look at 9/11, the response was the New 
York City Fire Department. Those are the people who have to 
respond to these types of events. And when we have them across 
the country, in one or two or three or four States, they do not 
have the resources on the Federal level to come in and handle 
one State, much less three or four or five.
    That is the point I made earlier about pandemic. Mike 
Leavitt, who is a former Governor, now Secretary of the 
Department of Health and Human Services, has been to every 
State and made the point very clear to us that the States are 
in charge, you are responsible, you are the ones that are going 
to be held accountable, and you better set up your program. 
Now, we will help you. We will give you logistical advice and 
that sort of thing. But you are going to have to respond 
yourselves.
    That is why it is particularly disturbing to see that 
language ``of serious public health concern'' in 1076, because 
that sends a signal to us that if we have a pandemic or a 
serious public health issue in a State, that might be the time 
that the President would nationalize the National Guard at the 
very time that we need them the most.
    Chairman Leahy. I understand that. In fact, Senator Bond, 
who was here earlier, he and I put in a supplemental bill, our 
amendment was to add $1 billion for new equipment for the 
Guard. It does not begin to cover all the need they had, and 
there is controversy over the issue of Iraq, of course. But I 
found no controversy from either party, across the political 
spectrum, on that money.
    Well, gentlemen, I appreciate your being here, and I again 
apologize for the delay. This has been extremely helpful. You 
will get copies of the transcript, and when you get them, if 
you think there is something that you wish you had added, we 
actually keep the record open so you can.
    Thank you.
    [Whereupon, at 3:50 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
